U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210




      September 29, 2006


      MEMORANDUM FOR:             EMILY STOVER DeROCCO
                                  Assistant Secretary for Employment
                                   and Training



      FROM:                       ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

      SUBJECT:                    The States of Texas and Mississippi Overpaid
                                  Unemployment Benefits to Some Texas Public
                                  Service Employment Participants
                                  Management Letter No. 06-06-011-03-315

      INTRODUCTION

      Normally, a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that only after the information in this Management Letter
      is evaluated/investigated by the OIG’s Offices of Audit (OA) and Labor
      Racketeering and Fraud Investigations (OLRFI), the Mississippi Department of
      Employment Security, and the Texas Workforce Commission (TWC) can a
      determination be made as to the legitimacy of the unemployment claims
      discussed herein.

      BACKGROUND

      On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
      Alabama coasts, resulting in a national disaster. A national emergency was
      declared, making disaster unemployment assistance (DUA) available to residents
      of the affected areas who lost their jobs, or were unable to return to their jobs as
      a result of Hurricane Katrina, if they did not qualify for State unemployment
      compensation (UC). Additionally, on September 23, 2005, Hurricane Rita hit the

                        Working for America’s Workforce
Texas and Louisiana coasts, resulting in another national emergency declaration
on September 24, 2005.

On September 7, 2005, ETA awarded the State of Texas a National Emergency
Grant (NEG) to assist over 37,500 Louisiana and Mississippi evacuees who were
displaced by the hurricane. The $75 million grant, administered by TWC, had an
initial release of $23.5 million. The NEG was later modified to allow for public
sector temporary public service employment (PSE) jobs that were not directly
related to the disaster, and to provide the same Katrina-related allowable
services to individuals affected by Hurricane Rita.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine if claimants received unemployment
benefits from the States of Mississippi or Texas for the same weeks they
received PSE wages.

We obtained Mississippi’s Hurricanes Katrina-related UC and DUA database for
the weeks ending September 10, 2005, through December 24, 2005.

We obtained Texas’ Hurricanes Katrina- and Rita-related UC and DUA
databases for the weeks ending September 10, 2005, through December 10,
2005. We also obtained a State data file that identified over 30,000 individuals
enrolled in NEG activities. From that group, we isolated 1,445 individuals who
had participated in PSE.

We obtained PSE payroll records from the following Local Workforce
Development Boards (WDB) through the week ending January 28, 2006 (the
latest week for which we had benefit payment records): Tarrant County, Deep
East Texas, South East Texas, Golden Crescent, Alamo, and Capitol Area.

From State hard copy records, we manually updated benefit payments for our
sampled claimants through March 11, 2006. Consequently, our audit period was
from the weeks ending September 10, 2005, through March 11, 2006.

We compared the Texas PSE participant database against both the Texas and
Mississippi DUA/UC payments databases, and identified 21 individuals being
reported as working under Texas’ NEG PSE projects on or after the date they
began receiving DUA or UC payments. An additional three individuals were
identified as working under Texas’ NEG PSE projects on or after the date they
began receiving DUA or UC payments from Mississippi.

We then computed questionable overpayments, using an “imputed” PSE exit
date for any participants that the State still showed as enrolled, but who were no
longer on the PSE program’s payroll.




                                         2
This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the Federal Government’s examination of relief
efforts in the aftermath of Hurricanes Katrina and Rita. When we issue this
report in final, we will forward a copy to the PCIE Homeland Security Working
Group, which is coordinating Inspectors General reviews of this important
subject.

RESULTS

Texas and Mississippi Paid 20 Individuals Unemployment Compensation or
Disaster Unemployment Assistance for the Same Weeks They Received
Public Service Employment Wages in Texas

Twenty individuals enrolled in Texas’ PSE program under the State’s NEG No.
EM-15072-05-60 received $21,882 of UC or DUA from Texas or Mississippi for
the same period they received PSE wages.

Texas paid benefits of $17,384 to 17 individuals.

Twenty-one individuals were enrolled in Texas’ NEG PSE program during the
same period of time they received UC or DUA benefits from the State, with 17 of
the individuals receiving one or more weeks of UC or DUA benefits from Texas
while receiving PSE wages. While 6 of these 17 claimants did report some
earnings, they reported less PSE earnings than they received. The total
unemployment benefits paid to these 17 individuals while they received PSE
wages was $17,384. These overpayments occurred even though claimants are
required to biweekly report any earnings to the TWC.

We presented the information for the original 21 individuals to Texas prior to our
final analysis. The State claimed it had already identified all but one of these
individuals for investigation of overpayments and/or ineligibility, as well as
initiated investigations or adjustments on each individual. The State later
provided evidence that it had made numerous adjustments to benefits and
identified all of these cases for further investigation.

Mississippi paid $4,498 to three individuals.

Three individuals were enrolled in Texas’ NEG PSE program during the same
period of time they received UC benefits from Mississippi. These three
individuals received $4,498 of Mississippi UC benefits for the same period they
received PSE wages. These overpayments could have occurred because
Mississippi did not have access to Texas’ PSE data files. Consequently,
Mississippi would not have known these individuals were employed in Texas if
the claimants failed to report their wages when recertifying for biweekly UC
benefits in Mississippi, as required by State law.




                                         3
RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensure
that the:

   1. State of Texas establishes the $17,384 of DUA ($2,340) and UC
      ($15,044) overpayments and collects any overpayments not already
      collected;

   2. State of Mississippi establishes the $4,498 of UC overpayments and
      collects the funds; and

   3. States of Texas and Mississippi determine, establish, and collect any
      additional overpayments to these individuals that may have been made
      after January 28, 2006.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that the State of Texas has established
overpayments and begun the collection process on all except two of the cases,
which are under review. Texas will begin the collection process on these two
cases if overpayments are established. Likewise, Mississippi is reviewing its
three cases and will establish overpayments and begin the collection process if it
determines these individuals were overpaid. In addition, ETA staff is working
with both States to ensure any additional overpayments made to these
individuals after January 28, 2006, are identified and collection efforts taken. The
Assistant Secretary’s response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support the
States’ actions to set up and recover all overpayments, as described in the
response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment




                                         4
cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                          5
6
